   DEPARTMENT
   DHS        OF HOMELAND SECURITY

      Office of Inspector General


        The State of North Carolina’s
       Management of State Homeland
       Security Grants Awarded During
         Fiscal Years 2002 and 2003




               Office of Audits
OIG-07-02                         October 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      October 18, 2006


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the audit of the State of North Carolina’s Management of State
Homeland Security Grants Awarded During Fiscal Years 2002 and 2003. We contracted with the
independent public accounting firm McBride, Lock, and Associates to perform the audit. McBride,
Lock, and Associates is responsible for the attached auditor’s report dated January 6, 2006, and the
conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
               Audit of

DEPARTMENT OF HOMELAND SECURITY
  OFFICE OF GRANTS AND TRAINING



STATE HOMELAND SECURITY GRANTS

          State of North Carolina
   State Department of Crime Control
   Division of Emergency Management

             July 31, 2006


    Contract Number GS-23F-8188H
                                     TABLE OF CONTENTS/ACRONYMS

I.     Executive Summary ....................................................................................................... 1

II.    Background .................................................................................................................... 3

III.   Results of the Audit........................................................................................................ 5

       A.         Approved Preparedness Strategy Progress Not Measured................................... 5
       B.         Program Management.......................................................................................... 7
       C.         Grant Expenditures ............................................................................................ 13

IV.    Other Matters............................................................................................................... 21

Appendices        ............................................................................................................................ 25

       A.         Objectives, Scope, and Methodology ................................................................ 26
       B.         Strategic Plan Goals and Objectives .................................................................. 27
       C.         Audit Analysis of Goals and Objectives............................................................ 29
       D.         Organization Chart............................................................................................. 33
       E.         Comparison of State Strategy to Actual Funding Allocation Factors................ 34
       F          Report Distribution ............................................................................................ 35

Acronyms

       2003-I                     FY 2003 State Homeland Security Grant Program – Part I (also SHSGP-I)
       2003-II                    FY 2003 State Homeland Security Grant Program - Part II (also SHSGP-II)
       CAPR                       Categorical Assistance Program Report
       CBRNE                      Chemical, Biological, Radiological, Nuclear, or Explosive
       CC&PS                      Department of Crime Control and Public Safety
       DHS                        Department of Homeland Security
       FBI                        Federal Bureau of Investigation
       FEMA                       Federal Emergency Management Agency
       FSR                        Financial Status Report
       FY                         Fiscal Year
       HazMat                     Hazardous Material
       MOA                        Memorandum of Agreement
       NCEM                       North Carolina Emergency Management
       ODP                        Office for Domestic Preparedness
       OIG                        Office of Inspector General
       OJP                        Office of Justice Programs
       OMB                        Office of Management and Budget
       PPE                        Personal Protective Equipment
       RRT                        Regional Response Teams
       SAA                        State Administrative Agency
       SDPP                       State Domestic Preparedness Program
       SERC                       State Emergency Response Commission
       SHSG                       State Homeland Security Grants
       SHSGP                      State Homeland Security Grant Program
       SMAT                       State Medical Assistance Teams
       USAR                       Urban Search and Rescue
       WMD                        Weapons of Mass Destruction
DHS                                                                Office for Domestic Preparedness
Final Report                                                                  State of North Carolina

                                          I. EXECUTIVE SUMMARY

McBride, Lock & Associates completed an audit of the State of North Carolina’s management of the
Department of Homeland Security (DHS), Office for Domestic Preparedness1 (ODP) (DHS/ODP)
State Homeland Security Grant Program (SHSGP) to determine whether the State (1) effectively and
efficiently implemented the first responder grant programs, (2) achieved the goals of the programs, and
(3) spent funds in accordance with grant requirements. The goal of the audit was to identify problems
and solutions that would help the State of North Carolina prepare for and respond to terrorist attacks.
(See Appendix A for additional details on the objectives, scope, and methodology of this audit.)

DHS/ODP awarded about $58 million to the State of North Carolina from the Fiscal Year (FY) 2002
State Domestic Preparedness Program, and from Parts I and II of the FY 2003 State Homeland
Security Grant Program. North Carolina’s State Department of Crime Control and Public Safety,
Division of Emergency Management (NCEM) managed the programs, commonly referred to as first
responder grant programs. During the audit, we visited three local jurisdictions and eight first
responder organizations. NCEM awarded these local jurisdictions and first responder organizations
about $4.5 million from the FY 2002 and FY 2003 first responder grant programs.

Although this audit included a review of costs claimed, we did not perform a financial audit of those
costs. Accordingly, we do not express an opinion on North Carolina’s financial statements or the
funds claimed in the Financial Status Reports (FSRs) submitted to DHS/ODP.

While North Carolina attempted to conscientiously manage the first responder grant programs, it did
not measure accountability in achievement of the DHS/ODP-approved strategic plan. Frequent
changes in the grantee’s management team adversely affected the State’s management of the programs.
Additionally, the lack of written policies and procedures and the inadequacy of the budget structure
diminished the effectiveness of the administration of the programs. The need to hire through
temporary employment agencies also caused us security concerns because of the sensitive nature of
information that they may have processed. The State made some payments for inappropriate
equipment and other unsupported purchases and did not always adequately monitor subgrantees. We
noted delays in the expenditure of grant funds as well as limitations on measurement standards to
determine the effectiveness or efficiency of North Carolina’s progress in preparing for terrorist
incidents.

The body of this report provides detailed discussion of the following findings.

A.         Approved Preparedness Strategy Progress Not Measured

North Carolina did not:

                    Establish an accountability system to measure achievement in terrorism preparedness.




1
    Currently the Office of Grants and Training


                                                                                                           1
DHS                                                              Office for Domestic Preparedness
Final Report                                                                State of North Carolina

B.     Program Management

North Carolina’s management of the grant programs has suffered as a result of:

               An inadequate accounting and budget structure.

               High staff turnover and related staffing concerns.

               Undeveloped policies and procedures.

               Inadequate monitoring of subgrantees.

These management issues have resulted in:

               Unreliable accounting for grant expenditures and reduced capability to monitor grants
               in an adequate fashion.

               Reduced compliance assurance with ODP program guidance and related regulations.

               Reduced security of sensitive assessment and vulnerability data.

               Lack of consistency, effectiveness, and efficiency in administering grants.

               Reduced assurance that grant purchases have and will enhance terrorism preparedness
               and increase interoperability across responder disciplines.

C.     Grant Expenditures

The State is not expending all money in a timely manner or in full compliance with grant terms.
Expenditure delays and non-compliance purchases have resulted in:

               Only 67% of 2002 and 2003 program funding being expended by March 31, 2005.

               Reduced effectiveness in terrorism preparation.

               Purchases made without adequate supporting documentation, unallowable per grant
               conditions, unauthorized per the equipment detail budget, or supplanted local funds.




                                                                                                  2
DHS                                                                    Office for Domestic Preparedness
Final Report                                                                      State of North Carolina

                                                II. Background

The Office for Domestic Preparedness (ODP)2 was transferred from the Department of Justice to
Department of Homeland Security in March 2003. DHS/ODP is responsible for enhancing the
capabilities of State and local jurisdictions to plan for, prepare for, prevent, respond to, and mitigate
the consequences of incidents of domestic terrorism. During fiscal years (FY) 2002 and FY 2003,
DHS/ODP provided grant funds to aid public safety personnel (first responders) to provide specialized
training/exercises and acquire equipment necessary to safely respond to and manage terrorist incidents
involving weapons of mass destruction (WMD). First responders include firefighters, police,
paramedics, and others. The FY 2002 and FY 2003 grants were commonly referred to as first
responder grants.

First Responder Grant Programs

FY 2002 State Domestic Preparedness Program (SDPP): This program provided financial
assistance to each of the nation’s states, U.S. Territories, the District of Columbia, and the
Commonwealth of Puerto Rico. DHS/ODP provided financial assistance for (1) the purchase of
specialized equipment to enhance the capability of State and local agencies to respond to incidents of
terrorism involving the use of WMD; (2) the protection of critical infrastructure; (3) costs related to the
design, development, conduct, and evaluation of WMD exercises; and (4) administrative costs
associated with the implementation of the statewide domestic preparedness strategies.

FY 2003 State Homeland Security Grant Program – Part I (SHSGP-I): This program provided
financial assistance for (1) the purchase of specialized equipment to enhance the capability of State and
local agencies to prevent and respond to incidents of terrorism involving the use of chemical,
biological, radiological, nuclear, or explosive (CBRNE) weapons; (2) the protection of critical
infrastructure and prevention of terrorist incidents; (3) costs related to the design, development,
conduct, and evaluation for CBRNE exercises; (4) costs related to the design, development, and
conduct of State CBRNE training programs; and, (5) costs associated with updating and implementing
each State’s homeland security strategy.

FY 2003 State Homeland Security Grant Program – Part II (SHSGP-II): This program
supplemented funding available through FY 2003 for the SHSGP to enhance first responder
preparedness. SHSGP-II funds were available to mitigate the costs of enhanced security at critical
infrastructure facilities during period of hostilities with Iraq and future periods of heightened threat.

The State of North Carolina received over $58 million from these three grant programs. The funded
activities and amounts are shown in the following table.




2
 In March 2004, the Secretary of Homeland Security consolidated ODP with the Office of State and Local Government
Coordination to form the Office of State and Local Government Coordination and Preparedness (SLGCP). For the
purposes of this report, we are using ODP in discussing the first responder grant programs.


                                                                                                                    3
DHS                                                          Office for Domestic Preparedness
Final Report                                                            State of North Carolina


                                                            Grant Programs
                 Funded Activities          SDPP        SHSGP-I     SHSGP-II     Total
        Equipment Acquisition Funds       $7,364,000   $ 9,760,000        N/A $17,124,000
        Exercise Funds                    $ 342,000    $ 2,440,000        N/A   2,782,000
        Training Funds                          N/A    $ 732,000          N/A     732,000
        Planning and Administration Funds       N/A    $ 976,000          N/A     976,000
        SHSG                                    N/A           N/A $31,928,000 31,928,000
        Critical Infrastructure                 N/A           N/A $ 4,912,000   4,912,000
        Totals                            $7,706,000   $13,908,000 $36,840,000 58,454,000


Department of Crime Control and Public Safety

The Department of Crime Control and Public Safety (CC&PS) leads North Carolina’s homeland
security strategy. CC&PS includes many of the State’s first responder personnel: Emergency
Management, the National Guard, the State Highway Patrol, the Civil Air Patrol, as well as the
Governor’s Crime Commission, and Alcohol Law Enforcement among other divisions. These
divisions provide statewide planning, coordination, and operational capabilities in law enforcement
and for man-made and natural disaster response. Because of the existing CC&PS structure, North
Carolina did not have to create new agencies or hire new personnel to take immediate action on
homeland security after the September 2001 attacks. However, in the fall of 2003 a new branch was
created within the Division of Emergency Management to manage the Homeland Security funds from
the federal government.




                                                                                                 4
DHS                                                           Office for Domestic Preparedness
Final Report                                                             State of North Carolina

                                    III. Results of the Audit

DHS/ODP awarded about $58 million to the State of North Carolina from the FY 2002 State Domestic
Preparedness Program, and from Parts I and II of the FY 2003 State Homeland Security Grant
Program. North Carolina’s Department of Crime Control and Public Safety– Division of Emergency
Management (NCEM) managed the first responder grant programs.

While North Carolina attempted to conscientiously manage the first responder grant programs, it did
not follow its DHS/ODP-approved strategic plan and did not aggressively manage the programs.
Frequent changes in the grantee’s management team adversely affected the State’s management of the
programs. Additionally, the State had not developed an adequate accounting and budget structure or
documented policies and procedures and did not properly define measurement standards for terrorism
preparedness. The State made some payments for goods and services as well as payments to
subgrantees without adequate supporting documentation or that were otherwise ineligible. As a result,
DHS/ODP had no assurances of the efficiency or effectiveness of North Carolina’s progress in
preparing for terrorist incidents.

A.     Approved Preparedness Strategy Progress Not Measured

The State and local responders have not established an accountability system to measure achievement
in terrorism preparedness. The State established Goals, Objectives and Implementation Plan as part of
their 2001 State Strategy (See Appendix B). The State may have used the 2001 State Strategy as a
baseline to measure improvements. However, supporting documentation or testimony was not
available to explain how the State developed such goals and objectives. Although the State has
submitted semi-annual Categorical/Discretionary Assistance Progress Reports (CAPRs) to DHS, the
State is measuring itself against a standard with no supporting basis. A determination of achievement
cannot, therefore, be assured. The Preparedness Officer in an on-site monitoring report dated June 28,
2005 states:

       “The SAA (NCEM) identified several goals in the 1999 State of North Carolina Three Year
       Statewide Domestic Preparedness Strategy. The goals are listed below with specific examples
       of how the State and local jurisdictions are implementing them and a measure of effectiveness
       that the programs have toward achievement of the goals. Since none of the FY 1999 goals
       were fully achieved most are restated in the FY04 State Homeland Security Strategy”

CAPRs have not been detailed to correlate with the Goals and Objectives included in the 2001 State
Strategy. The reports lacked detail as to the specific status of each goal and objective. The initial
report filed for the 2002 grant included some discussion of specific use of the grant funds. However,
the more recent reports provide discussion limited to delays in the expenditure of funds, the need to
extend the grant completion date, and a schedule of budget to actual expenditures (State-Local). This
does not provide assurances that the Goals and Objectives have been accomplished. Appendix C
summarizes our analysis of the accomplishments in meeting some of the goals and objectives.
Additionally, of the 14 CAPRs that should have been completed, only 11 reports were on file with the
Preparedness Officer.




                                                                                                    5
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

An example of the State’s inability to illustrate how effectively the exercises performed are
contributing to the State’s terrorism preparedness is reflected in the State’s informal policy that no
exercise is ever considered a failure. Regardless of whether the State/local jurisdiction actually
completes an exercise, the State views each step of the process for conducting an exercise as
contributory to the State’s terrorism preparedness. If the State or a local jurisdiction only completes
part of the process for an exercise, State officials consider the exercise a success because lessons were
learned even if the exercise was never completed. No association with the overall exercise plan and its
relationship to the State Strategy goals and objectives was apparent.

Grant requirements state that exercises implemented with grant funds should be performance-based
and should be evaluated using performance measures being defined by ODP, which incorporate
standards and guidelines issued by federal agencies and national organizations (FY 2003 State
Homeland Security Grant Program – Program Guidelines and Application Kit, pgs. 13-14).

As an example, the State allocated 42% of total SDPP equipment grants directly to building
capabilities within regional-based teams for the following response initiatives: Urban Search and
Rescue (USAR) teams, hazardous material (HazMat) response teams referred to as Regional Response
Teams (RRTs), and surgical medical capabilities in the form of State Medical Assistance Team
(SMAT). These response initiatives are placed strategically throughout the State, staffed by local
responders from within the immediate regional area, and directed by State agencies. The remainder of
the SDPP equipment grants was allocated primarily to personal protective equipment (PPE). The State
allocated a smaller portion (8%) of the SHSGP-I equipment grants directly for the USAR, RRT, and
SMAT response initiatives. A review of the purchases made at three local jurisdictions indicated that
the remainder of the SHSGP-I equipment grants was used to purchase additional personal protective
equipment that the SDPP grants could not fulfill and permitted some jurisdictions to begin to focus on
higher-level items that would permit them to respond to specific CBRNE threats. This reflects a
change in goals. Additionally, the State and local officials could not provide documentation or
illustrate how effectively the agreement items being purchased and exercises and training being
conducted related to the specific goal and objective.

The effectiveness of spending for the SDPP, SHSGP-I, and SHSGP-II cannot be evaluated and
monitored. Consequently, the State cannot provide assurance that grant funds were expended to
produce effective improvements in terrorism preparedness. Although the State has expended over
$31 million for equipment, training and exercises, the effectiveness of those expenditures towards
accomplishing the goals and objectives presented in the Three-Year State Strategy has not been
measured.

We recommend that the Assistant Secretary, Office of Grants and Training require the Director of the
State Administrative Agency (SAA) to:

   1. Document and implement procedures for evaluating their progress in achieving the plans goals
      and objectives and either:

               •   Redirect spending to be in line with the plan, or

               •   Approve a revised plan based on the progress achieved.


                                                                                                       6
DHS                                                            Office for Domestic Preparedness
Final Report                                                              State of North Carolina


In response to the finding and recommendation, ODP officials said that it is unfair for the State to
receive criticisms in establishing measurement standards since the federal government has yet to
develop such standards. However, the State does need to report what has been accomplished. State
officials said that their initial CAPRs were more detailed but the State Preparedness Officer changed
the submission requirement to only provide summary expenditure data. The State believes that all
CAPRs reports have been submitted. The State has not received direction from DHS regarding
measurement standards. Currently, the State has a better accountability system to keep track of what
has been done and progress towards achievement. The State concurred with the recommendation.

B. Program Management

The State’s ongoing administration of the grant programs could be improved by (a) implementing an
adequate accounting and budget structure, (b) addressing high staff turnover and related staffing
concerns, (c) developing policies and procedures, and (d) improving the monitoring of subgrantees.

a. Accounting and Budget Structure

The State accounting system does not provide for an adequate accounting for grant expenditures. The
system does not permit accurate tracking and reporting of grant expenditures according to grant
requirements.

The State accounting system provides for the grant expenditures to be tracked by the type of
expenditure that relates to the State’s chart of accounts. It does not accommodate the additional
accountability necessary to track grant expenditures directly for equipment, exercise, training, or
administrative costs.

In order to accomplish this accountability, NCEM’s Grant Manager has developed a secondary
accounting system to track grants by the functional obligation, such as for equipment expenditures.
The Grant Manager posts the grant expenditures from the State accounting system to this secondary
system. However, this posting is done in totals only, thereby precluding an audit trail detailing the
expenditures posted for each functional obligation.

While the State should be commended for their management of cash in an effective manner, the
manner of accounting used for tracking expenditures and report preparation is not adequate. The detail
for functional classifications such as equipment, exercise, training, or administrative expenses cannot
be provided. Therefore validation of budgetary accounting for these items and monitoring thereof
cannot be assured. Compliance with budgetary restrictions also cannot be assured. The audit could
not test the validity of the classifications.

The control of expenditures through the accounting system is also limited by the manner by which
related State agencies expend funds through these grants. Other State agencies are allotted a budget
from the grant obligations and those State agencies manage that expenditure budget of the grant funds
in accordance with the grant requirements. The Grant Manager typically does not see the detail
expenditures of these State agencies until his monthly reconstruction of the accounting system, as



                                                                                                     7
DHS                                                            Office for Domestic Preparedness
Final Report                                                              State of North Carolina

discussed above, when he tracks and reviews the supporting documentation for all the expenditures of
his grant. However, by that time the Federal funds have typically already been drawn down and
disbursed to the State.

Processes for developing quarterly financial reports are particularly vulnerable to this lack of
consistency in reporting costs that are allowable, allocable, and reasonable. A number of personnel are
in place to administer the grants and therefore charge costs for the benefit of the program. However,
the accounting system does not consistently capture these costs.

According to the Office of Justice Programs (OJP) – Office for Domestic Preparedness Fiscal Year
2002 State Domestic Preparedness Program Guidelines and Application Kit, as well as the DHS –
Office for Domestic Preparedness Fiscal Year 2003 State Homeland Security Grant Program
Guidelines and Application Kit: “Financial Status Reports are due within 45 days of the end of each
calendar quarter. A report must be submitted for every quarter the award is active, including partial
calendar quarters, as well as for periods where no grant activity occurs.” Further, Office of
Management and Budget (OMB) Circular A-87, Attachment A.C.1. stipulates that to be allowable
under Federal awards, costs must: (a) be necessary and reasonable…(b) be allocable to Federal
awards….and…(f) be awarded consistent treatment.

According to the SDPP Grant Manager, the weaknesses of the State accounting system have been a
known issue of the State government for quite some time and reported in various State Auditor reports.
However, the State has not yet made the necessary commitment of cost and effort to implement a new
accounting system to resolve the weaknesses. The loss of accountability due to the numerous
processes by which the State approves and expends the grant funds appears to be the result of an
inadequate grant management philosophy among senior State government officials and a lack of
written policies and procedures.

The State’s tracking of grant expenditures is unreliable. The grants cannot be monitored in an
adequate fashion to ensure compliance with the budget and other compliance provisions of the grant.
Additionally, the State’s reporting of expenditures quarterly on the FSR cannot be determined to be
reliable and accurate and therefore, cannot be used to promote the most effective and efficient use of
grant funds.

b. High Staff Turnover and Related Staffing Concerns

NCEM has been plagued by high turnover of staff. The rate at which the State has experienced
turnover has inhibited the State from administering the programs effectively and efficiently and
thereby fueled a number of the concerns discussed in this report. Further, the State’s use of contract
employees on ODP grants without background verification leaves the State open to a breach of
potentially sensitive information held in public trust.

OMB Circular A-87, Attachment A.2.a.(1) stipulates that governmental units are responsible for the
efficient and effective administration of Federal awards through the application of sound management
practices.




                                                                                                     8
DHS                                                            Office for Domestic Preparedness
Final Report                                                              State of North Carolina

The issue of high staff turnover has been compounded by an inflexible and cumbersome hiring process
and an inadequate temporary labor solution given the sensitive nature of the grants. The current
Homeland Security Branch Manager has indicated that the State’s formal hiring process can take
upwards of two full months to complete. Therefore, the State often relies on a State government
temporary labor provider that provides temporary staffing strictly for State government staffing needs.
Employees of the labor provider are State government employees. This service offers State agencies
more flexible employment options, which sometimes later become full-time positions as agency
resources allow. However, neither the State nor the temporary labor provider conduct extensive
background verifications of employees. The primary background check, which has been in place for
approximately two years, is a simple criminal check on prospective employees to identify applicants
that have a criminal record in the State of North Carolina. This may result in unsecured employees
gaining access to potentially sensitive security information.

The employment turnover among key personnel in the administration of the 2002 and 2003 ODP
grants causes a number of concerns surrounding the hiring process and staff retention policies,
particularly regarding the protection of sensitive information. For example, during the administration
of the assessments prior to writing the November 2001 Strategy, the State hired a full-time OJP
Coordinator and three Field Assessors to administer the assessments in the local jurisdictions. The
responsibility for conducting the assessments and developing the State Strategy was placed under the
daily direction of a Federal Emergency Management Agency (FEMA) Grant Manager that oversaw the
OJP Coordinator and Field Assessors. The FEMA Grant Manager reported to the Planning Support
Branch Manager. Shortly after the assessments began, the Eastern Branch Field Assessor’s
employment was terminated, leaving the Central Branch Field Assessor and the OJP Coordinator to
pick up the extra workload. Consequently, the assessment process took approximately 18 months for
the State to complete.

Simultaneously, the NCEM office experienced a surge in staffing requirements necessary to input the
assessment data coming in from the Field Assessors to the OJP website. However, the State hiring
process did not provide the flexibility to quickly staff these positions. NCEM relied on the State
contracted temporary labor provider to input the assessment data to the OJP website. As a result,
temporary employees contracted by the State were working with sensitive information without
background verification.

Just as the assessments were completed and prior to the writing of the State Strategy, the State
emergency management office experienced significant turnover. During a period of a few months,

   •   The Planning Support Branch Manager left State employment,

   •   The FEMA Grant Manager in charge of the 2002 Grant also left the State employment,

   •   The OJP Coordinator also vacated State employment, and

   •   The two remaining Field Assessors returned to retirement or moved on to other projects.




                                                                                                     9
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

   This placed the responsibility for interpreting the assessment results and drafting the State Strategy
   with the Director of the NCEM and the Assistant Director of Information and Planning. However,
   the Director of the NCEM vacated State employment for FEMA employment opportunities prior to
   the approval of the 2001 State Strategy and the 2002 grant application process.

The Assistant Director of Information and Planning contracted employment with a public policy
student from Duke University to interpret the assessment data and help apply the results to State
funding priorities and write the November 2001 State Strategy. Prior to the completion of the State
Strategy, the public policy student moved on to other employment.

Just prior to the award of the 2002 OJP grant the current Director of the NCEM was hired. Upon
award of the 2002 OJP grant, a temporary employee was moved from FEMA grants to manage the OJP
grant. This employee was eventually hired as a full-time State employee and currently serves as the
2002 Domestic Preparedness Grant Manager.

The Homeland Security Branch was created within the NCEM in the Fall of 2003 and another
temporary employee was utilized to manage the 2003 Homeland Security Grant initially. The 2002
Grant Manager was also moved under the Homeland Security Branch.

   •   During the fall of 2004 the Assistant Director of Information and Planning retired his position
       during the North Carolina State Auditor’s audit of the OJP and prior to the DHS Domestic
       Preparedness Grants audit.

   •   The 2003 Part I Grant Manager moved on to other employment with the State during fieldwork.

   •   Two seasoned employees within the State Budget Office that had financial management
       experience with the ODP grants either retired or moved on to other employment opportunities
       during fieldwork.

   •   There have been two Homeland Security Branch Managers within the first eighteen months of
       the position.

Consequently, the NCEM has not been able to effectively and efficiently administer the grant
programs. The personnel issues also increase the risk of noncompliance because the newly hired
management personnel are less familiar with ODP program guidance.

c. Policies and Procedures Not Developed

NCEM currently does not have written policies and procedures. The State has not developed written
policies and procedures for any of the day-to-day operations performed by the Grants Managers and
other supporting staff such as:

   •   Issuing subgrant agreements and processing cost reimbursement requests from local
       jurisdictions for review and approval,



                                                                                                      10
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

   •   Initiating draw downs of Federal funds for reimbursement,

   •   Accounting for State and local subgrantee expenditures, monitoring subgrantee financial and
       programmatic performance; or

   •   Other grant administration duties.

The State has used procedures that are generally followed within the NCEM for performing grant
administration duties based on previous grants experience from other federal and State programs.
However, the procedures are neither documented nor consistently performed. As a result, a number of
inconsistencies and other errors in spending the grant funds have been disclosed. During our testing of
grant expenditures for compliance with the federal and State grant requirements, we found a variety of
instances representing and confirming inconsistent application of administration procedures by the
NCEM grants staff, including:

   •   Insufficient and inconsistent recordkeeping of cost documentation and general ledger costs not
       completely supported by documentation,

   •   Costs charged to the incorrect grant in the general ledger,

   •   Significant cost overruns on individual items,

   •   Inability to reproduce detail budgets for State expenditures of funds, and

   •   Approval and expenditure of Federal funds for unallowable costs.

This condition is of particular importance given the lack of continuity and consistency of staff within
the NCEM from the inception of the grants through the current period. Documented policies and
procedures are a critical element in administering grants effectively and efficiently, especially in an
environment of consistently high turnover where unwritten policies and procedures may not be
effectively or consistently passed down to incoming personnel.

The State’s lack of written policies and procedures has been previously reported and brought to the
attention of State officials in the October 2004 audit of North Carolina’s Homeland Security and
Bioterrorism Efforts conducted by the Office of the State Auditor. Since that audit, both the Homeland
Security Branch Manager for the NCEM and the Grants Manager for the SHSGP-I have changed. The
current Homeland Security Branch Manager for the NCEM has stated that he is aware of the absence
of written procedures. However, currently NCEM has no formal plan or deadline for completing the
documentation of the policies and procedures. In a period of rapidly expanding funding budgets and
evolving program guidelines, the need for documented procedures is enhanced.

d. Inadequate Monitoring of Subgrantees

The State does not have adequate processes to monitor subgrant activities in the local jurisdictions.
The State required the local jurisdictions to file lists of equipment, exercises, and training (the SDPP


                                                                                                     11
DHS                                                               Office for Domestic Preparedness
Final Report                                                                 State of North Carolina

did not include training) that they wished to perform with their allocation of the grant funds. When the
State received the local jurisdictions’ requests, they verified that the items requested met the criteria in
the program guidance. Further, as the local jurisdictions expended the funds and submitted
reimbursement requests with invoices and other supporting documentation of the purchase, the State
reviewed those requests against the local jurisdiction’s initial purchase list to ensure that items being
purchased matched the purchase list, as approved by the State. Items not matching the approved
purchase request list were not reimbursed with Federal funds. The State will not reimburse a local
jurisdiction for the purchase of an item without submission of a cost report reimbursement request and
adequate supporting documentation for the purchases, such as invoices.

Although the NCEM has processes to ensure that purchases of the local jurisdictions are compliant
with the grant terms, the State has not adequately monitored the activities of the local jurisdictions to
ensure that the equipment, exercise, and training expenditures of the local jurisdictions are in line with
State, regional, and local terrorism preparedness goals. The State has not adequately conducted site
visits at the local jurisdictions to ensure that the equipment purchases are adequately controlled, used
for their intended purpose, and adequately advance interoperability for local and possibly State
response efforts. For exercises, the State requires after-action reports prepared by the local
jurisdictions to evaluate the effectiveness and efficiency of the exercises performed by local
responders. However, the State does not perform analysis on the after-action reports to ensure that the
local jurisdictions are actually developing terrorism preparedness capabilities with the exercises by
advancing exercise difficulty, response relevance, and correcting weaknesses discovered in prior
after-action evaluations. Finally, the State does not verify that training attendees have adequately
demonstrated competence from their training and are improving terrorism response capabilities as a
result of the training.

Program guidelines from the Fiscal Year 2002 State Domestic Preparedness Program state “To insure
compliance with the Government Performance and Results Act, Public Law 103-62, this
solicitation…is measured by: 1) number of local jurisdictions that enhanced their capacity to respond
to weapons of mass destruction with new equipment; 2) number of emergency responders who have
enhanced skills needed to respond to a WMD incident through training; and 3) number of jurisdictions
that tested preparedness through participation in tabletop or full-scale exercises.”

The State has not developed a process by which subgrantees are monitored and has not taken a leading
role in promoting interoperability among individual jurisdictions during the early years of the
Homeland Security grants. While the State has developed a better sense of interoperability as the grant
program has evolved and more local jurisdictions’ basic response needs have been filled, subgrantees
are not adequately monitored to ensure that they are purchasing items that will enhance the quality of
local and State capabilities to respond to terrorism events while increasing interoperability across
responder disciplines and outside jurisdictional borders.

We recommend that the Assistant Secretary, Office of Grants and Training require the Director of the
SAA to:

   2. Commit the necessary resources to an accounting system that adequately tracks and details
      grant expenditures by budgetary category. The accounting system should provide assurance of



                                                                                                         12
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

       budgetary compliance as well as promote the most effective manner to expend grant funds for
       terrorism preparedness.

   3. Establish policies to ensure that adequately trained and secured staffing are in place to
      effectively administer grant funds and provide a security analysis of sensitive data to limit
      access to only those authorized to use and process such information.

   4. Establish written policies and procedures for consistent and effective administration of grant
      funds.

   5. Establish processes to improve monitoring of funds allocated to subgrantees to ensure that
      subgrantee purchases:

               •   Serve the objective of terrorism preparedness on a coordinated basis throughout
                   each region within the State.

               •   Meet interoperability objectives.

               •   Are evaluated for effectiveness and efficiency by State and local officials.

ODP officials agreed that the State’s accounting system needs to track and detail grant expenditures by
budgetary category and said it would follow up with the State to determine if an appropriate
accounting system is in place. Those officials also agreed with our recommendation that adequately
trained and secured staff administer grant funds. In response to recommendation 4, ODP officials
agreed that documented procedures should be in place in a period of rapidly expanding budgets and
evolving program guidelines. Lastly, ODP officials did not comment on the State’s need to improve
subgrantee monitoring.

State officials do not believe that the secondary accountability system is inadequate but recognize the
need for improvement at the statewide level. Regarding staff turnover, those officials said they have
few options to limit the turnover because all DHS grant positions are temporary and continue based on
availability of funding and work. The State does not believe that temporary personnel had access to
secured information, only numbers, and it plans to perform an analysis of information that may be
sensitive to ensure that only appropriate personnel have access. In response to recommendation 4, the
State officials we talked to said standard operating procedures have been developed and are currently
in use. For recommendation 5, those same officials said that even though they did not believe that
DHS established a monitoring requirement, 12 grant managers have been authorized (8 currently
filled) and will perform subrecipient monitoring as part of their grant management responsibilities.
The State has also instituted a regionalization concept that has benefited standardization and efficiency
of the subrecipient use of funds.

C. Grant Expenditures

The State did not expend grant funds in a timely manner. The grant funds expended were not in full
compliance with grant guidance.



                                                                                                      13
   DHS                                                                           Office for Domestic Preparedness
   Final Report                                                                             State of North Carolina

   a. Delays in the Expenditure of Grant Funds

   The table below documents the timeliness of grant expenditures by the State and local jurisdictions.
   The SDPP original grant period was from August 1, 2002 to July 31, 2004. The State requested an
   extension of the grant period on March 18, 2003 because they were unable to spend all of the money
   by the end of the grant period. The State also had to request a grant extension for the SHSGP-I on
   February 11, 2005 to extend the grant period to September 30, 2005 because of its inability to spend all
   of the money by the end of the grant period:

                                                             SDPP                     SHSGP-I               SHSGP-II
          Program Start Date                  August 1, 2002      April 1, 2003     May 1, 2003
          Award Date                        September 13, 2002    May 7, 2003      June 12, 2003
          Award Amount                          $7,706,000        $13,908,000       $36,840,000
          Original End Date                    July 31, 2004     March 31, 2005    April 30, 2005
          Extension Date                       July 31, 2005   September 30, 2005 October 31, 2005
          Dollars Expended @ June 30, 2004      $4,953,058         $2,316,695        $1,751,311
             % Expended                            64%                17%                5%
          Dollars Expended @ March 31, 2005     $7,363,849         $7,157,244       $17,025,932
             % Expended                            96%                51%               46%

   According to the OJP – Office for Domestic Preparedness Fiscal Year 2002 State Domestic
   Preparedness Program Guidelines and Application Kit, as well as the DHS – Office for Domestic
   Preparedness Fiscal Year 2003 State Homeland Security Grant Program Guidelines and Application
   Kit: "5. Suspension or Termination of Funding: DHS may suspend or terminate funding, in whole or
   in part, or other measures may be imposed for any of the following reasons: a) Failing to make
   satisfactory progress toward the goals or objectives set forth in this application. b) Failing to follow
   grant agreements requirements or special conditions.”

   Local jurisdictions expended the majority of the funding. The following schedule highlights examples
   of the delays in grant expenditures at the local level:

                                Grant                         Initial        First        Reimb.         Reimb.      # Days Award
  Award         Jurisdiction    Award        MOA Sign         Order*        Invoice      Approval       Received       to Reimb.

   SDPP        Mecklenburg      9/13/02        5/6/03          8/6/03       8/22/03       3/24/04        5/4/05           964
   SDPP        Forsyth          9/13/02       6/12/03        10/23/03        1/6/04       1/26/04        3/2/04           536
   SDPP        Duplin           9/13/02          **              **            **            **            **
 SHSGP-I       Mecklenburg       5/7/03        9/30/03        3/25/04       3/30/04       5/25/04        7/7/04           427
 SHSGP-I       Forsyth           5/7/03       9/30/03         1/28/04       3/26/04        4/9/04        5/6/04           365
 SHSGP-I       Duplin            5/7/03       12/23/03        2/23/04       2/28/04       3/26/04        4/21/04          350
* The initial order date for equipment typically occurred within a few days after the State approved the purchase list.
Notes:
** County requested the State procure purchases due to cash flow concerns.




                                                                                                                            14
DHS                                                                        Office for Domestic Preparedness
Final Report                                                                          State of North Carolina

Based on our review of three local jurisdictions, the period from the award date of the grant to the time
the local jurisdictions signed the Memorandums of Agreement (MOAs) ranged from eight to nine
months for the SDPP grant and four to five months for the SHSGP-I grant. The State appeared to be
slow in sending the MOAs to the local jurisdictions. The delays in drafting and issuing the MOAs to
each of the 101 local jurisdictions, as well as the State approving the purchase requests is attributable
to the lack of continuity in staffing and the lack of written policies and procedures. The lack of
continuity within the NCEM during the time of the issuance of the subgrants and approval of the
purchase requests did not accommodate the significant demands placed on the NCEM during the early
stages of the administration of the grants. This cause is related more to start-up issues and is less likely
to continue to cause delays in disbursement of funds.

Duplin County did not sign an MOA with the State for the SDPP. An MOA was not signed because
Duplin County struggled with cash flow concerns and requested that the State procure the items on
behalf of the county. Once Duplin County submitted its list of desired equipment, the State purchased
the items and shipped them to the county. For the SHSGP-I grant, the State determined that it was not
feasible to perform procurement services for the local jurisdictions and all local jurisdictions were
required to perform their own procurement procedures. Duplin County suffered the delay in signing
the MOA after a leading county official heading up the administration of the grant passed away.
Duplin County experienced some turnover in this position before the current Director of Emergency
Management for the county discovered the grant documents and began spending the county’s
allocation of the funding for terrorism preparedness.

Our sampling of three local jurisdictions along with eight first responder organizations, along with our
review of the State Auditor’s3 sampling of 89 local jurisdictions and first responder organizations
provided the following input of the common causes for delays:

      •    The local jurisdictions and first responder organizations interviewed explained that they held
           meetings to decide what their needs were and ensure that they were complying with DHS grant
           regulations and this process took time. (Estimated 5-7 months.) This is a start-up issue and
           will likely resolve itself in future grant periods.

      •    Cash flow was also an issue for the local jurisdictions, where 65 local jurisdictions (State
           managed procurement for these jurisdictions) for the SDPP grant and all local jurisdictions in
           the SHSGP-I grant were required to advance the money for these expenditures. The Director
           stated that many local jurisdictions did not have the funds available on hand to purchase these
           items without State assistance or other methods to make funds available. The Director also
           added that the local jurisdictions appeared hesitant of outlaying the required funding because of
           fear that their purchases may be disallowed as a result of changes in program guidance from
           DHS. The local jurisdictions also submitted listings of items for approval to the State.
           (Estimated delay 3-4 months.) This is a continuing issue unless cash management processes
           are changed.

      •    The local jurisdictions and first responder organizations must ensure that they are following
           their own local procurement guidelines along with the federal guidelines. Often the local
3
    State of North Carolina Performance Audit, North Carolina’s Homeland Security and Bioterrorism Efforts, October 2004.


                                                                                                                      15
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

       jurisdictions do not use a State purchasing contract (which would speed up the procurement
       process) because they can purchase items cheaper by doing their own procurement. (Estimated
       delay 2-3 months.) This is also a continuing issue although additional experience with the
       types of purchases may alleviate some of this cause.

   •   Since many of the local jurisdictions and first responder organizations needed the same types of
       equipment, they used the same vendors for the equipment. This backlogged the vendor and
       increased the time required by the vendor to get the invoice and the equipment delivered.
       Emergency Management Directors confirmed that this was a cause of the delays at the local
       jurisdictions. This is a continuing issue.

   •   The Deputy Fire Chief of Charlotte-Mecklenburg Fire Department explained that many of the
       sole source vendors that are producing decontamination tents and similar equipment have not
       increased capacity, even after three years of production at an insufficient level to meet national
       demand, causing the backlogs to grow. The Deputy Fire Chief illustrated the fact when he
       described how some equipment still has a lead time of several months. This is a continuing
       issue.

   •   Seven local jurisdictions declined funding because staff lacked time to perform exercises or
       handle the paperwork. This is a continuing issue.

After the State received the cost reports submitted by the local jurisdictions, it put into motion the
process of getting the reimbursement checks sent to the local jurisdictions. The time it took the State
to approve a cost report was usually less than a month for most cases tested, and the State took a
month, on average, to get the local jurisdictions their reimbursement checks after the cost report had
been submitted to the State. Overall, the process took the local jurisdictions over a year after the date
of the grant award to get their first reimbursement check from the State.

The State and its local jurisdictions are not spending the grant money within the time period of the
grant. The local jurisdictions and the State have to go through numerous processes from award date of
the grant up to reimbursement. Each of these processes caused significant delays in the expenditure of
grant funds.

b. Compliance Issues Related to the Use of Grant Funds

Test work performed during audit procedures disclosed numerous exceptions to ODP grant guidance in
the areas of equipment purchasing and administrative expenses. The exceptions relate to:
(a) inadequate supporting documentation ($123,808), (b) other unallowable equipment and travel costs
($21,177), (c) unauthorized changes to equipment detail budgets ($195,575), and (d) supplanting of
funds ($86,018).

Guidelines for allowable expenditures are listed in the OJP – Office for Domestic Preparedness Fiscal
Year 2002 State Domestic Preparedness Program Guidelines and Application Kit and the Fiscal Year
2003 State Homeland Security Grant Program Guidelines and Application Kit. Additionally, fund




                                                                                                      16
  DHS                                                              Office for Domestic Preparedness
  Final Report                                                                State of North Carolina

  expenditures for these programs are subject to the OJP – Office of the Comptroller Financial Guide
  and OMB Circular A-87.

  Inadequate Supporting Documentation Issues

  Invoices requested for testing purposes were widely scattered throughout the NCEM and other State
  agencies. Consequently, it was often difficult to obtain a full understanding of a transaction from the
  documentation provided. In other instances, we were unable to obtain any supporting documentation
  that was relevant to the transaction being tested. Items tested for which supporting documentation was
  not available are disclosed in the table below:

            Award        Ref No.                  Description of Item                     Amount

                                     Could not determine - Purchased for Asheville
            SDPP         557812      Fire Dept.                                            $     1,954
            SDPP         990933      Could not determine                                         2,854
                                     Subgrant Funds Disbursed to NC DENR for
            SDPP        9999269      Radiological Detection Equipment                          119,000
                                     SDPP Total Questioned Costs – Inadequate
                                     Supporting Documentation                              $ 123,808

                       Total Questioned Costs                                              $ 123,808

  Unallowable Items

  Williamston Fire Department made an unallowable vehicle purchase and charged the SDPP grant. The
  purchase was made in response to their inability to tow a Rapid Response Team trailer provided to
  them as part of the State Strategy. However, vehicle purchases are unallowable by the grant conditions
  set forth in the application booklet. Testing also disclosed other unallowable costs and a significant
  cost overrun. These instances are presented in the table below:

 Award     Check No.   Description of Item                               Amount      Reason for Questioning

 SDPP       583169     Truck Purchased to Pull RRT Trailers          $     9,500     Unallowable Item

                       SDPP Total - Other Unallowable Costs          $     9,500

SHSGP-I     568582     Generator                                           5,950     Exceeded State Policy Limits
SHSGP -I   5/25/2004   Mecklenburg Co. Direct TV Subscription.               465     Unallowable Item
SHSGP -I   9/10/2004   Forsyth Co. Lowe's Lumber                           5,262     Unallowable Lumber charged
                                                                                       to Training
                       SHSGP-I Total - Other Unallowable Costs       $    11,677

                       Total Questioned Costs                        $     21,177




                                                                                                           17
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

Unauthorized Charges on Equipment Detail Budget

Test work also disclosed numerous purchases of equipment items not listed on the original equipment
budget submitted with the grant proposal. While the items purchased were allowable under program
conditions, the purchase of them was not specifically approved under the specific grant proposal, and
are therefore questioned by us. Instances of this nature identified during the audit are disclosed in the
table below:

          Award          Ref No.                 Description of Item                    Amount

           SDPP          580192      Rescue Helmets                                 $         426
           SDPP          575438      Full-Face Respirator                                   5,165
           SDPP          572897      Carbon Fiber Air Tanks                                 3,328
           SDPP          557647      Portable Air Shelter                                  12,348
           SDPP          550695      Purifying Air Respirators                             22,930
                                     SDPP Total - Not on Equipment Budget           $      44,197
         SHSGP-I         583182      Printer                                        $        194
         SHSGP-I         586069      New Hanover Co. Emergency Management                 132,752
         SHSGP-I         556981      Search Systems, Inc.                                  18,432
                                     SHSGP-I Total - Not on Equipment Budget        $     151,378

                                     Total Questioned Costs                        $      195,575

Supplanting of Funds

Expenditures tested at the NCEM and in Forsyth County disclosed supplanting of funds. Forsyth
County has been proactive in developing terrorism preparedness within the county and the
Winston-Salem area. Forsyth County officials saw a need for an 800 MHz radio system to enhance
interoperability for communications across local responder disciplines. County officials developed a
plan to acquire a multi-million dollar 800 MHz system over a period of several years that would
ultimately enable the county to reach their communications interoperability goals. For the SDPP,
Forsyth County was awarded $72,702 from the local jurisdictions’ allocation of the grant. Forsyth
County officials chose to spend their award entirely on 22 additional 800 MHz radios for the Volunteer
Fire Departments and emergency rooms in both hospitals. Because Forsyth County had developed a
plan to acquire the 800 MHz system prior to the award of the SDPP, the county’s use of its SDPP
funding appears to be a supplanting of funds.

The General Assembly of North Carolina in its 2001 session enacted House Bill 1471 – “An act to
appropriate funds from the General Fund and to authorize the Governor to access funds from the
Savings Reserve Account to address terrorism issues.” Section 2 of the bill states that “the General
Assembly approves the use of and the Governor may access up to thirty million dollars ($30,000,000)
from the Savings Reserve Account for the 2001-2002 fiscal year to be used to implement defense
measures against all forms of terrorism…” Further, the bill states, “The Governor shall take steps to
repay any monies diverted under this section if funds become available to offset the State’s



                                                                                                      18
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

expenditures for its terrorism response efforts.” Thus, the language of the bill has provided the
Governor with the power to use reserve funding to address “terrorism issues,” and reimburse the State
reserves with Federal funding where available. Therefore, the potential existed for the State to use
funding from the SDPP or possibly the SHSGP-I grants to reimburse the State reserves for monies
expended on terrorism preparedness. While testing the purchase of equipment, exercise, training, and
administrative expenditures for allowability and for compliance with State and local purchasing
procedures, we did not construct our testing specifically towards reporting supplanting of funds issues
associated with the North Carolina House Bill 1471. However, our test samples disclosed one instance
of a State purchase where the cost of hydraulic rescue equipment was made with State funds and
transferred to the federal cost centers for the SDPP grants.

Transactions tested that disclosed supplanting of funds are presented in the following table:

            Award       Check No.               Description of Item                  Amount

            SDPP        PO040412      Forsyth County 800 MHz Radios & Eqpt.      $     72,338
            SDPP          553907      Hydraulic Ram                                    13,680

                                      Total - Supplanting of Funds               $     86,018

The total costs questioned resulting from: (a) inadequate supporting documentation, (b) unauthorized
changes to equipment detail budgets, (c) other unallowable equipment and travel costs, and (d)
supplanting of funds, is $426,578.

Scattered and disorganized supporting documentation resulted from a lack of written policies and
procedures and an inadequate accounting and budget structure. The approval of unallowable items for
purchase with Federal funds also resulted from an inadequate accounting and budget structure, along
with inconsistent monitoring of the use of grants funds and a high employee turnover rate.

We recommend that the Assistant Secretary, Office of Grants and Training require the Director of the
SAA to:

   6. Spend grant money within the time period originally established by the grant or the approved
      extended period.

   7. Support the allowability, allocability, and reasonableness of expenditures with adequate
      documentation.

   8. Obtain approved documentation from appropriate parties.

   9. Ensure that the grants accounting system properly accounts for grant expenditures.

   10. Ensure that equipment procured is on the detail budget equipment listing or that deviations
       from the listing are approved.




                                                                                                    19
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

We also recommend that the Assistant Secretary, Office of Grants and Training:

    11. Disallow costs of $426,578.

ODP officials took no exception with the finding and recommendations and said they would evaluate
the propriety of the expenditures questioned in this finding. State official said they are investigating
the details available to determine the propriety of the costs associated with the questioned transactions.
They further said that State accounting system payments would have been supported with invoices and
that copies of those invoices have been requested from local governments. The State contends that
items not on the equipment detail budget were otherwise allowable and therefore subsequent approval
was not necessary. The State is reviewing other unallowable items we questioned to determine
whether they were later reversed and therefore not charged to the grant. In particular, the State is
investigating the possible reversal of $119,000 subgranted for radiological detection equipment.
Further, the State is investigating the supplanting of funds issue raised in this finding.




                                                                                                       20
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

                                         IV. Other Matters

The following matters indicate our concerns regarding compliance with grant terms. While these
matters have now been overtaken by grants awarded after 2003, they are reported here to illustrate the
conditions that existed for the grant programs within the scope of this audit.

1. SDPP and SHSGP Local Allocation Formula Deviated From Strategy

The method used to prioritize local jurisdictions and allocate the local share of funding deviated from
the method presented in the State’s approved Three-Year Statewide Domestic Preparedness Strategy
dated November 2001. According to the November 2001 State Strategy, “Local jurisdictions were
prioritized through use of a…weighted average methodology. This methodology was utilized to
prioritize jurisdictions according to potential risk from a terrorist attack and their need for initial
equipment necessary to respond to a terrorist attack. Both scores were combined to create a priority
score that was ranked according to specified factors and weights.” Appendix E provides a
comparison of the actual State Strategy to the actual funding allocation factors.

In addition to those differences described in Appendix E, the weight assigned to each factor presented
in the State Strategy differed from the weight that was actually used. The sum of all the weights
assigned to the factors used in the weighted average did not add to 100, nor did they add to the same
total as shown in the State Strategy. The relationship between the factors used was more difficult to
analyze.

For the SHSGP-I and SHSGP-II calculations, NCEM based the calculations on a base allocation
amount to each county of $10,000 for equipment, $2,500 for exercises, and $1,000 for training grants.
The base allocation amount was then followed by a pro rata allocation of the remaining portion of the
local share funding based solely on each county’s proportionate share of the State’s population.

The State’s method used to prioritize the local jurisdictions and allocate the local share of funding for
the SDPP shifted the weighted average from using the assessment data that had been researched and
compiled in the counties after expending considerable effort and resources of several State agencies,
towards data and funding and allocations that were not addressed in the State Strategy. The factors
used for allocation were reasonable given their relevance to risk determination. However, we could
not determine, the changes that resulted from the allocation modification because of inadequate data.
Consequently, the State’s methodology may have resulted in significant adjustments in the allocations
of funding when the actual calculations were performed.

NCEM officials could not provide documentation or an explanation as to why the factors used in the
weighted average varied so greatly from the State Strategy for 2002. Individuals that were responsible
for processing the assessment results into meaningful information, establishing State priorities, and
drafting the State’s Three-Year State Domestic Preparedness Strategy were no longer available for
comment.

For 2003, the State gave a variety of reasons for the shift of the funding allocation methodology. State
officials desired to resolve some of the discord that occurred in many of the local jurisdictions during



                                                                                                      21
DHS                                                             Office for Domestic Preparedness
Final Report                                                               State of North Carolina

the allocation of the SDPP funding. Many of the local jurisdictions felt that the State allocated the
2002 local share of funding based on a higher standard than was used by DHS to allocate funding to
the States. The State’s methodology for allocating the local share of funding was based on a weighted
average methodology with specific factors and weights rather than an allocation built on a base award
amount plus a population-share allocation, which was the methodology used by DHS to allocate
funding to the States. Therefore, State officials shifted the methodology towards a population-based
allocation.

The State also offered that the 2003 methodology for prioritizing the local jurisdictions to allocate
funding shifted away from the assessment data because the assessments were conducted prior to
writing the November 2001 State Strategy and had been developed in a pre-September 11, 2001 era.
The State therefore questioned the relevance of those assessment methodologies. The State also
offered that the supporting data for the assessments conducted prior to writing the 2001 State Strategy
were destroyed as a matter of confidentiality, as directed by the Federal Bureau of Investigation (FBI).
As a result, State officials expressed that the detail from the original assessments was not available and
rendered the original assessment efforts useless.

According to the OJP – Office for Domestic Preparedness Fiscal Year 2002 State Domestic
Preparedness Program Guidelines and Application Kit: “Pursuant to Conference Report 107-278,
States are required to allocate these grant funds in accordance with their State’s approved domestic
preparedness strategy.” According to the DHS – Office for Domestic Preparedness Fiscal Year 2003
State Homeland Security Grant Program Guidelines and Application Kit: “States should allocate these
grant funds in accordance with their State’s approved homeland security strategy…”. Due to time
constraints associated with obligating funds within the 45-day window, DHS permitted the State to
carry-forward the Three-Year State Domestic Preparedness Strategy dated November 2001 for
purposes of administering the SHSGP-I and SHSGP-II funding. According to the current DHS
Preparedness Officer for the Homeland Security Grants, the State was not required to strictly adhere to
the strategy in allocating the funds. However, adherence to the strategy was recommended. .

In response to this matter, ODP officials said they were interested in ensuring that the strategies are
properly funded rather than how each local jurisdiction is funded and that the strategies need to be a
living document. State officials responded that they established objectives for the HazMat teams,
RRTs, decontamination units and the like, and that funding allocations were made to meet those
objectives. They also said that DHS did not reject those goals and objectives and that allocations to
locals may have changed but the 2001 objectives were met.

2. State Control Over Local Use of Funds

The State did not meet the minimum 80% pass-through of equipment acquisition funds to local
jurisdictions. NCEM set aside 20% each from the SDPP and the SHSGP-I. Then, NCEM stipulated a
large portion of the 80% local share of funding in these grants for State-led initiatives such as USAR
teams, SMATs, and HazMat teams called RRTs. These State-led projects would build or enhance
statewide response capabilities but be based in and staffed out of the local jurisdictions. The remaining
funds were then allocated among the local jurisdictions based on the prioritization calculations. After
September 11, 2001, the State decided to move forward with the current response development plan in



                                                                                                       22
DHS                                                           Office for Domestic Preparedness
Final Report                                                             State of North Carolina

place at the State through NCEM, Office of Emergency Medical Services and Public Health to create a
tiered response capability. The primary project to accomplish this goal was the realization of the
SMATs and USARs that had been developed in concept and to a limited capability before September
11th. The State has taken the position that 80% of the funding has been passed-through to the local
jurisdictions because the funds are being spent on equipment that will be operated by local responders
to build a statewide/regional capability.

For 2002, various teams and committees for HazMat, Medical Agencies and Hospitals, and USARs
developed estimates of equipment, personnel, and funding necessary to meet the State’s objectives.
These units had varying number of team members and regional boundaries. The teams and committees
were comprised of State employees, local recipients, and first responders. For instance, the HazMat
committee’s objective was to get each of the State’s 22 Type II teams to a strong Type II, leaning
towards Type I. A HazMat committee (HazMat responders organization) communicated its needs to
NCEM. For 2003 a similar concept was maintained. Because of the 45-day limit to obligate funds,
NCEM had no time to define new regions or develop a new strategy.

The following table illustrates how SDPP equipment funding was allocated to the local jurisdictions in
relation to total equipment grant funding to the State:

                         Benefited Agencies                      %           Cost         %
       Subgrants Directly to Local Jurisdictions                47%         $2,785,000
       State-managed efforts:
          Locally-Staffed HazMat Teams                         34%           2,000,000
          Locally-Staffed Medical Agencies and Hospitals        17%            987,360
          Locally-Staffed USAR Teams                            2%             120,000
       Total Allocation to Local Jurisdictions                 100%         $5,892,360   80%
       Total State Jurisdiction Allocation                                   1,471,640   20%
       Total SDPP Equipment Grant                                           $7,364,000   100%

The following table illustrates how the SHSGP-I equipment funding was allocated to the local
jurisdictions in relation to total equipment grant funding for the State:

       Benefited Agencies                                        %           Cost         %
       Subgrants Directly to Local Jurisdictions                90%         $7,008,000
       State-managed efforts:
          Locally-Staffed HazMat Teams                          6%             500,000
          Locally-Staffed USAR Teams                            3%             200,000
          Locally-Staffed Medical Agencies and Hospitals        1%             100,000
       Total Jurisdiction Allocation                           100%         $7,808,000   80%
       Total State Jurisdiction Allocation                                   1,952,000   20%
       Total SHSGP Equipment Grant                                          $9,760,000   100%




                                                                                                   23
DHS                                                            Office for Domestic Preparedness
Final Report                                                              State of North Carolina

The State stipulated how a portion of the local pass through funding would be spent. However, the
initiatives have improved terrorism preparation in the State.

According to the OJP – Office for Domestic Preparedness Fiscal Year 2002 SDPP Guidelines and
Application Kit, as well as the DHS – Office for Domestic Preparedness Fiscal Year 2003 SHSGP-Part
I Guidelines and Application Kit, 80% of the equipment acquisition funding allocation must be
“provided” (SDPP) / “obligated” (SHSGP-I) to local communities. The appropriation establishing
these programs did not address this requirement. Furthermore, the DHS Preparedness Officer noted
that the State could retain a portion of the funds so long as the project would directly benefit local
jurisdictions and the state has local concurrence through a memorandum of understanding or other
formal mechanism to retain funds on their behalf. ODP officials further said that memoranda of
understanding between the State and the local governments need to be completed to ensure that locals
have input regarding their homeland security needs.

State officials said that the local jurisdictions were solicited for input for distribution of equipment
centrally procured by the State. Local jurisdictions benefit from regional distribution and the local
jurisdictions build SMATs. The budgets for the regional teams were apparently acceptable to DHS
since they did not object.




                                                                                                     24
DHS                         Office for Domestic Preparedness
Final Report                           State of North Carolina




               APPENDIXES




                                                            25
DHS                                                            Office for Domestic Preparedness
Final Report                                                              State of North Carolina

                                                                                        Appendix A
                              Objectives, Scope, and Methodology

The objective of the audit was to determine whether the State of North Carolina effectively and
efficiently implemented the first responder grant programs, achieved the goals of the programs, and
spent the funds awarded according to grant requirements. The goal of the audit was to identify
problems and solutions that would help the State of North Carolina prepare for and respond to terrorist
attacks.

The Department of Homeland Security, Office of Inspector General (DHS/OIG) is reporting the results
of the audit to appropriate DHS officials.

The scope of the audit included the following three grant programs. These programs are described in
the Background section of this report.

•      FY 2002 State Domestic Preparedness Program (SDPP)

•      FY 2003 State Homeland Security Grant program -- Part I (SHSGP-I) and Part II (SHSGP-II)

The audit methodology included work at DHS/ODP Headquarters, the State of North Carolina’s
offices responsible for the management of the grants, and various subgrantee locations. The
subgrantee locations visited included three counties and eight first responder organizations. These
subgrantees were awarded about $58 million by NCEM under the above three grant programs. The
purposes of the visits were to obtain an understanding of the three grant programs and to assess how
well the programs were being managed. Our audit considered DHS/ODP and State policies and
procedures, as well as applicable Federal grant and program requirements. We reviewed
documentation received from DHS/ODP, as well as from the State offices and the subgrantees. In each
of the locations visited, we interviewed responsible officials, reviewed documentation supporting the
State and subgrantees management of the awarded grant funds, and physically inspected some of the
equipment procured with the grant funds.

We reviewed reports from prior audits. We also coordinated our work with the North Carolina State
Auditor’s Office. This office had recently issued a performance audit that included the first responder
grant programs.

The audit of the State of North Carolina began January 2005and we exited with State officials in June
and July2006. The audit was conducted in accordance with Government Auditing Standards as
prescribed by the Comptroller General of the United States (Yellow Book-2003 Revision). We were
not engaged to and did not perform a financial statement audit, the objective of which would be to
express an opinion on specified elements, accounts, or items. Accordingly, we did not express an
opinion on the costs claimed for the first responder grant programs included in the scope of the audit.
If we had performed additional procedures or conducted an audit of the financial statements in
accordance with generally accepted auditing standards, other matters might have come to our attention
that would have been reported. This report relates only to the programs specified. The report does not
extend to any financial statements of the State of North Carolina.


                                                                                                    26
DHS                                                           Office for Domestic Preparedness
Final Report                                                             State of North Carolina

                                                                                      Appendix B

                                   State of North Carolina
                                    Goals and Objectives
                                  Strategic Plan – Annex D


Three-Year Statewide Domestic Preparedness Strategy

Goal 1:    Provide statewide leadership in planning measures that will effectively aid
preparedness, response, and recovery efforts to incidents of terrorism.

      Objective 1.1:   Identify high-risk jurisdictions and regions.

      Objective 1.2:   Activate planning groups to address terrorism consequences.

      Objective 1.3:   Coordinate the development of procedures for effective urban and regional
                       response and recovery to incidents of WMD terrorism.

      Objective 1.4:   Establish integrated plans of consequence management and business
                       resumption between government and business continuity planners.

      Objective 1.5:   Establish continuity of operations measures for executive, legislative, and
                       judicial branches of State government.

      Objective 1.6:   Enhance statewide response capacity through the completion of the OJP 3-
                       year strategic plan, which will enable the funding of State and local
                       equipment priorities.

      Objective 1.7:   Initiate hospital planning that supports a minimum mass casualty capability
                       in urban and key regional locations.

      Objective 1.8:   Initiate public health planning that supports early detection, diagnosis, and
                       intervention for infectious diseases.

      Objective 1.9:   Finalize a national pharmaceutical stockpile plan.




                                                                                                 27
DHS                                                          Office for Domestic Preparedness
Final Report                                                            State of North Carolina

Goal 2: Promote a commitment to building the professional capacity to manage incidents of
terrorism, and a commitment to the preparedness of potential victims.

      Objective 2.1:   Identify and offer standard and consistent awareness and tactical operations
                       response and recovery training.

      Objective 2.2:   Establish an integrated government and business continuity planning
                       curriculum.

      Objective 2.3:   Enhance Community Emergency Response Team outreach in terrorism self-
                       preparedness.

      Objective 2.4:   Establish an emergency management training facility to provide hands-on
                       access to consequence management.

Goal 3: Strengthen and enhance statewide terrorism exercise efforts.

      Objective 3.1:   Establish consistent exercise standards for measuring the effectiveness of
                       response and recovery procedures to incidents of terrorism.

      Objective 3.2:   Encourage analysis of local, State, and federal resource capability in all
                       exercises involving terrorism.

      Objective 3.3:   Explore all elements of terrorism consequences in exercise scenarios.

Goal 4: Ensure proper statewide equipment selection and distribution for effective and safe
response and recovery to incidents of terrorism.

      Objective 4.1:   Meet priority equipment needs of high risk jurisdictions.

      Objective 4.2:   Strengthen equipment capability in detection, personal protection, and
                       decontamination for RRTs, SORT, and State Highway Patrol (SHP).

      Objective 4.3:   Identify and fill equipment and pharmaceutical needs for State Medical
                       Assistance Teams.

      Objective 4.4:   Fund equipment and supplies for maintaining a mass casualty capability at
                       urban and key regional hospitals.

      Objective 4.5:   Create, fund, and equip State Medical Assistance Teams necessary for
                       establishing mass casualty response and treatment in the field.

      Objective 4.6:   Create, fund, and equip Urban Search and Rescue teams for response to
                       catastrophic collapse incidents.




                                                                                                28
DHS                                                            Office for Domestic Preparedness
Final Report                                                              State of North Carolina

                                                                                        Appendix C

                                  State of North Carolina
                           Audit Analysis of Goals and Objectives

Note – The State has not provided a report on measurement of accomplishment for the Goals
and Objectives as listed in the 2001 State strategy as reported on Appendix B. Following is the
audit analysis of each Objective.

      Objective 1.1:    Identify high-risk jurisdictions and regions.

               Audit Analysis:   The State has completed identification of high risk jurisdictions and
                                 regions.

      Objective 1.2:    Activate planning groups to address terrorism consequences.

               Audit Analysis:   The State Emergency Response Commission (SERC) was expanded.
                                 The Terrorism Preparedness Advisory Committee became SERC.
                                 The Committee met with local advisory committees to inform them
                                 that funds were available.

      Objective 1.3:    Coordinate the development of procedures for effective urban and regional
                        response and recovery to incidents of WMD terrorism.

               Audit Analysis:   Procedures were not evident. An emergency contingency plan is
                                 present, but it is uncertain that it is relevant to WMD terrorism.

      Objective 1.4:    Establish integrated plans of consequence management and business
                        resumption between government and business continuity planners.

               Audit Analysis:   In at least one of the subgrantees reviewed, there was a
                                 public/private committee to address continuity. This was unlikely
                                 statewide.

      Objective 1.5:    Establish continuity of operations measures for executive, legislative, and
                        judicial branches of State government.

               Audit Analysis:   An exercise, termed Capital Guardian, was performed. The plan
                                 was to evacuate and drill on actions to be taken in the event of a
                                 terrorist attack. The exercise was considered a failure because of the
                                 Highway Patrol’s inability to identify certain buildings. During the
                                 exercise, another disaster was imminent, therefore the exercise was
                                 discontinued. No rescheduling was evident to address the failures of
                                 the exercise.



                                                                                                    29
DHS                                                           Office for Domestic Preparedness
Final Report                                                             State of North Carolina


      Objective 1.6:    Enhance statewide response capacity through the completion of the OJP 3-
                        year strategic plan, which will enable the funding of State and local
                        equipment priorities.

               Audit Analysis:   The three year plan was not written but indications are that a plan
                                 and execution of the plan for SMATs, USARs, and RRTs was
                                 performed. This was confirmed through CAPRs.

      Objective 1.7:    Initiate hospital planning that supports a minimum mass casualty capability
                        in urban and key regional locations.

               Audit Analysis:   Public Health assigned an individual to develop hospital planning.
                                 A health and medical assessment has been developed.

      Objective 1.8:    Initiate public health planning that supports early detection, diagnosis, and
                        intervention for infectious diseases.

               Audit Analysis:   The Department of Health and Human Services has identified a need
                                 for a public health preparedness position at each of the 85 local
                                 public health departments

      Objective 1.9:    Finalize a national pharmaceutical stockpile plan.

               Audit Analysis:   The Public Health response is not helpful to determine whether this
                                 objective was accomplished.

      Objective 2.1:    Identify and offer standard and consistent awareness and tactical operations
                        response and recovery training.

               Audit Analysis:   The State has developed a certification plan and goals.

      Objective 2.2:    Establish an integrated government and business continuity planning
                        curriculum.

               Audit Analysis:   It could not be determined. No specific assertions were made by the
                                 State in reports or other documentation.

      Objective 2.3:    Enhance Community Emergency Response Team outreach in terrorism self-
                        preparedness.

               Audit Analysis:   It could not be determined. No specific assertions were made by the
                                 State in reports or other documentations.




                                                                                                  30
DHS                                                           Office for Domestic Preparedness
Final Report                                                             State of North Carolina

      Objective 2.4:    Establish an emergency management training facility to provide hands-on
                        access to consequence management.

               Audit Analysis:   There is nothing imminent.

      Objective 3.1:    Establish consistent exercise standards for measuring the effectiveness of
                        response and recovery procedures to incidents of terrorism.

               Audit Analysis:   See Finding “Approved Preparedness Strategy Progress Not
                                 Measured” No exercise is considered a failure. Standards are not
                                 established to consider effectiveness.

      Objective 3.2:    Encourage analysis of local, State, and federal resource capability in all
                        exercises involving terrorism.

               Audit Analysis:   The specific inclusion of RRTs is not evident. The SMATs and
                                 USARs analysis is not clear as to degree of capability.

      Objective 3.3:    Explore all elements of terrorism consequences in exercise scenarios.

               Audit Analysis:   The audit reviewed “After Action” reports. Preparedness has
                                 improved from when they began, but the overall analysis of all
                                 elements not clear.

      Objective 4.1:    Meet priority equipment needs of high risk jurisdictions.

               Audit Analysis:   An allocation of funds was made on 2002 grant based on risk
                                 assessment. However, no final analysis was made to assure that
                                 purchases met risk concerns. Purchases made were reviewed per
                                 request to ensure that they were authorized equipment list items. No
                                 field review performed. No assurance that overall it has met goals.

      Objective 4.2:    Strengthen equipment capability in detection, personal protection, and
                        decontamination for RRTs, SORT, and State Highway Patrol (SHP).

               Audit Analysis:   Equipment capabilities have been strengthened for detection,
                                 personal protection and documentation although a complete analysis
                                 of statewide and local purchase inventory is not available.

      Objective 4.3:    Identify and fill equipment and pharmaceutical needs for State Medical
                        Assistance Teams.

               Audit Analysis:   A list of needs was developed for SMATs.




                                                                                                  31
DHS                                                        Office for Domestic Preparedness
Final Report                                                          State of North Carolina


      Objective 4.4:    Fund equipment and supplies for maintaining a mass casualty capability at
                        urban and key regional hospitals.

               Audit Analysis: This capability is not evident from State reports or other
                       documentation.

      Objective 4.5:    Create, fund, and equip State Medical Assistance Teams necessary for
                        establishing mass casualty response and treatment in the field.

               Audit Analysis:   SMATs are operational.

      Objective 4.6:    Create, fund, and equip Urban Search and Rescue teams for response to
                        catastrophic collapse incidents.

               Audit Analysis:   USARs are operational.




                                                                                              32
DHS                                                                               Office for Domestic Preparedness
Final Report                                                                                 State of North Carolina

                                                                                                                    Appendix D


                               STATE OF NORTH CAROLINA
                     DEPARTMENT OF CRIME CONTROL AND PUBLIC SAFETY
                           HOMELAND SECURITY/BIOTERRORISM
                         GRANT/PROJECT MANAGEMENT STRUCTURE

                                               Department of Crime Control
                                                   And Public Safety
                                                       Secretary


                                              Division of Emergency                             State
                                                   Management                                  Highway
                                                                                                Patrol
                                                                                                         - Voice Interoperability Plan
                                                                                                            For Emergency Responders


                    Information                      Logistics               Operations                    Finance
                   And Planning


    Homeland                 Planning              - Exercise and Training   - Urban Search and Rescue   - Approval of Expenditures
                                                   - Community Emergency     - Local Assistance          - Budget Monitoring
     Security                Support                 Response Teams
     Branch                   Branch               - Warehouse Management
                                                   - Purchasing

  -Grant Management        State Medical Assistance Team
  - Assistance to Locals   Regional Response Team
                           Risk Management
                           Emergency Planning Community Right to Know
                           Radiological Emergency Planning
                           Natural Hazards Planning
                           Emergency Alert System
                           Emergency Management Performance Grant
                           North Carolina Emergency Response Commission

        Source: Department of Crime Control and Public Safety




                                                                                                                                      33
DHS                                                           Office for Domestic Preparedness
Final Report                                                             State of North Carolina

                                                                                      Appendix E


                   COMPARISON OF STATE STRATEGY TO ACTUAL
                        FUNDING ALLOCATION FACTORS

                                                2002

                    Strategy                                         Actual

    Risk Rating (5)                               -
    Biological (2)                                -
    Chemical (2)                                  -
    Incendiary & Exposure (2)                     -
    Nuclear (2)                                   Nuclear (5)
    Identified PTE’s (2)                          -
    Population (7)                                Population (20)
    Population Density (3)                        Population Density (10)
    Presence of Interstate (3)                    Presence of Interstate (7.5)
    Presence of Military Facilities (5)           Number of Military Facilities (7.5)
    Presence of Other Sources of Funding (1)      Non-NLD Cities (5)
    -                                             Presence of Railroad or Railcam (7.5)
    -                                             Presence of Public Venues (7.5)
    -                                             Presence of Major Government Facility (7.5)

    Note – Number in brackets are relative weight assigned.

                                                2003

                     Strategy                                        Actual

     Risk Rating (5)                               Base Allocation to each county:
     Biological (2)                                   $10,000 – equipment
     Chemical (2)                                     $2,500 – exercises
     Incendiary & Exposure (2)                        $1,000 – training grants
     Nuclear (2)                                   Plus:
     Identified PTE’s (2)                             Pro rata allocation of remaining funding
     Population (7)                                   based on proportionate share of
     Population Density (3)                           population.
     Presence of Interstate (3)
     Presence of Military Facilities (5)
     Presence of Other Sources of Funding (1)




                                                                                                 34
DHS                                                          Office for Domestic Preparedness
Final Report                                                            State of North Carolina


                                                                                   Appendix F

                                     Report Distribution

      Department of Homeland Security

      Secretary
      Deputy Secretary
      Executive Secretariat
      Chief of Staff
      Deputy Chief of Staff
      General Counsel
      Under Secretary, Management
      Under Secretary, Preparedness
      Chief Financial Officer
      Chief Information Officer
      Assistant Secretary for Public Affairs
      Assistant Secretary for Policy
      Assistant Secretary for Legislative and Intergovernmental Affairs
      Chief Security Officer
      Chief Privacy Officer
      DHS GAO/OIG Liaison

      Office of Grants and Training

      Assistant Secretary
      Director, Office of Grant Operations
      OIG Audit Liaison

      Office of Management and Budget

      Chief, Homeland Security Branch
      DHS OIG Program Examiner

      Congress

      Committee on Homeland Security and Governmental Affairs, as appropriate




                                                                                             35
Additional Information and Copies


To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.



OIG Hotline


To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
